U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                       Public Release



               National Oceanic and
         Atmospheric Administration


   Improvements Needed in Reporting of
        Performance for NOAA Goals –
           Build Sustainable Fisheries,
         Recover Protected Species, and
          Predict and Assess Decadal to
            Centennial Climate Change


    Final Report No. FSD-15989-4-0001/September 2004




                                        Office of Audits
                                                "",""'''0.

                                        .l~
                                        c:
                                                 'J;( ""'\    .
                                                              ~
                                                                  UNITED      STATES
                                                                  The Inspector
                                                                                         DEPARTMENT
                                                                                     General
                                                                                                                OF COMMERCE

                                         \,     l!1 ,
                                              o~<Ii.J'
                                                         .f       Washington~   D.C. 20230

                                                                      SEP             7       n
                                                                                            '1r; ~
                                                                                            C'A­

               MEMORANDUM FOR:	                    Vice Admiral Conrad C. Lautenbacher, Jr., USN (Ret.)
                                                   Undersecretary of Commercefor Oceans and Atmosphere
                                                   National Oceanic and Atmospheric Administration


               FROM:	                              Johnnie ElFrazie,-"               ~.II                .
               SUBJECT:	                           Improvements e 'edin Reporling of::;:ti:.         for              '.
                                                   NOAA Goals        uild Sustainable
                                                   Fisheries. Rver    ProtectedSpecies. and Predict and
                                                   Assess Dee el to CentennialClimate Change
                                                   Final Report No. FSD-15989-4-0001

               This is our final report on our audit of NOAA's reporting for the following three
               performance goals and their associatedmeasures in the Department of CommerceFY
               2002 Performance & AccountabilityReport (PAR): (1) "build sustainable fisheries,"
               (2) "recover protected species," and (3) "predict and assess decadal to centennial climate.
               change."

               We detemrined NOAA's reporting for all three goals should be improved: in some cases,                       '




        -- -   the titles of measures did not convey a clear impression()fwhat was being assessed; in ­
               others, explanations and verificationdetails were incomplete,or supporting
               documentationwas inadequate. Taken together, these weaknesses diminish the
               usefulness of the reported performance information.

               To correct these deficiencies, NOAA needs to (1) revise certain performance measures to
               convey clearly what is being assessed; (2) strengthenintemaI controls to ensure that
               reported data is fully supported and adequately explained;and (3) provide appropriate
               detailin PARdiscussionsof theresults.	                                 .              '




            In responding to the draft report, NOAA concurred with all seven,ofthe
.           recommendations. The National Marine Fisheries Service(NMFS) generally concurred
            with the recomnien~tions and findings, with a few exceptions.,NMFS noted its
            disagreement with certain statementsand conclusions contained within theTepOrt. Also,
          - NMFS identified certain actions taken or planned with respect to the "recover protected ­

            species" goal. In addition to concwring with recommendations,the Office of Oceanic
            and Atmospheric Research (OAR) identified certain actionstaken or planned to address
            the recommendations within the rePort.                '




               Where appropriate, we have modified the report to reflect NOAA's response. Within
               appropriate sections of this report we summarize NOAA's response ,to our draft report as




    \
                                                                      -- -_u   --   u_u                  un-­
              well as provide comments. NOAA's completeresponse is attachedto the report as
              Appendix1.

                In accordancewith the Department AdministrativeOrder 213-5,please provide us with
             .	 your actionplan addressing the recommendationsfor our review and concurrencewithin .

                60 days of this memorandum. Should you feel the need.to discussthe content of this
                report and the action plan, please call me at (202)482-4661, or ThomasMcCaughey,
                DireCtor.Financial Statements Audits Division,at (202) 482-6044.

              We appreciatethe cooperation and courtesiesyour staff extended to us during our review.
         -
              Attachment
                                                                                                  '"

              cc:	   Dr. William T. Hogarth

                     Assistant Administrator for Fisheries


                     Richard Rosen

                     Assistant Administrator for

                      Oceanic and Atmospheric Research


                     Gregory W. Withee

                     AssistantAdministrator for

                      Satellite and Infonnation Services


                     William F. Broglie            .	 .

                     ChiefAdministrative Officer

                     Mack Cato

                     Director

                     Audits and Infonnation Management





                                                                             "

     ;
                                                                                       .~




                               ~	                             v

.

                                                                  TABLE OF CONTENTS


                                                                                                                                                                                         Page


                                                                                             .
    EXECUTIVE SUMMARY. . . . . . . . . . . . . . . . . . . . . . . ; . . . . . . . . . . . . . . . . . . . . . ". . . . ..                                                                      1



    :JN1'R.ODUCTION                     ~. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                                         1


    OBJECTIVES~SCOPE~AND METIIODOLOGY ..................................                                                                                                                    2


    F,{NDINGSAND RECOMMENDATIONS                                                                                                                                                            4

                                                                                                                                                                                    "


            I.	        Performance data for NMFS-supportedgoals-"Build Sustainable

                       Fisheries" and ''Recover Protected Species"was compromised by unclear

                       measures~weak:proceduresto ensurereliable data, insufficient

                       documentatio~ and inadequate explanations       ... ... ... . .. . ... ,                                                                                          on 4

                       A.	      Performance         measures are unclear.                               ""                           ,         ."                                           4


                       B.	     Assessing performance against a baseline does not

                               clearly convey NMFS' progress       '"''''''                                                                             '.""       ..,...                   5


                       c.	     NMFS lacks a rigorous process for ensuringdata reliability                                                                                                  6


                      D.	      Additionaldisclosureswould enhanceusefulness

                               of results " ...'  .'  "'"'''''' ... '.'''' """                                                           .'                             ........           8


                      E.	      Recommendations                                                                                                                    ..'                     11


                      F.	     NOAA Response                             ;   ...                                                                                                    .      11


                      G.	     OIG Comments                                    '.""'''''.                                                                "                         ...     12


                                                                                                                             ,.
.         ll.         Performance reportingfor OARINESDISgoal-"Predict
                  ,   and Assess D~dal to Centennial ClimateChange"-needs stropger

                      oversight to ensure datareliability and enhanceunderstanding.::                                                                                .......              13


                      A.	    Titles of measuresand targets do not precisely characterize
                             reported     data      . . . . . . . . . . . . . . .. . . .. . . .. . . . .. . . . . . . . . . . . . .. .. . . .. . .. . . . . . . . .. . . . . .
           13


                      B.	    Documentation~osupport results shouldbe maintain~

                             PAR explanationsneed to be clear and accurate, and 'verification

                             procedures areneeded                                      ...............                                                                                    14

                                                                                                                                                                                   v

                                                                                                            ,..

"
                                ..
                                                   ,   :
                                                       I
         ..
                                                                                                          -:..
    91         '''' ... .. ... ....,. . .. ... . .. .'... '"'''''''''''.'''''       ... ..., . s}uammo;) DIO       .   'H

    91                          ...                             "'"             ;   ...        ~suodsa~ WON            'Q
    91   "''''''                      .'" . .. .           .. ...       .                 ..
                                                                                               SUo9gpU~mm03a~          'J
    i                                     !
,   \                                     i
           U.S. Department of Comme~ce                                                     Final Report No. FSD-15989-4-0001
           Office afInspector General                                                                         September 2004

                                                  EXECUTIVE SUMMARY

          The Department of Commerce relies on activities of the National Oceanic and
          Atmospheric Administration (NOAA) to support the strategic goal, "observe and manage
          the Earth's environment to promote sustainable growth."! In its annual Peifonnance and
          Accountability Report (PARJ,2 Commerce details the out~ome ofthese activities against
          NOAA's seven goals aI1drelated performance measures. This audit report details our
          findings and recommendations regarding NOAA's procedures for collecting, verifying,
          and presenting performance data in the FY 2002 PAR3 for the goals and measures listed
          in table 1.
                                                                                 Table 1. NOAA Goals and Measures Covered
          With respect to the performance                                                         ..
                                                         ~~~s.~~~~':.:'/.":"
          goal on building sustainable
          fisheries,NOAA reports                                             .
                                                             Reduce the number of overfished major stocks of fish from 56

          measures to assess the sequence
          of events associatedwith
                                                             to 45 by FY 2007
                                                                             .
                                                             Reduce the number of major stocks with an "unknown" stock
                                                             status to no more than 98 by FY 2007
          sustaining or rebuilding fisheries              .  Increase  the percentage of plans to rebuild overfished major
                                                             stocks to sustainable levels
          over time. For the performance
         goal on recovering protected        Recover
                                             Protected
                                                                            .
                                                             Reduce by ]0 (ftom a FY 2000 baseline of27) by FY 2007,
         species, NOAA reports measures
         reflecting efforts to prevent the
                                             Species                        .
                                                            the number of threatened species at risk
                                                            Increase the number of commercial fisheries that have

         extinction of species identifiedas
         threatened and endangered4and
                                                                            .
                                                            insignificant marine mammal mortality
                                                            Reduce by II (ftom a FY 2000 baseline of29) by FY 2007,
                                                            the number of endangered species at risk of extinction
         to increase the number of
         commercial fisherie-sthatdo not     Predict and
                                             Assess
                                                          .
                                                                             .
                                                            Assess and model carbon sources and sinks throughout the



                                                                            ..
                                                            United States
         have adverseimpacts on marine       Decadal to
                                                            Assess and model carbon sources and sinks globally
         mammals. As for the goal            Centennial
                                             Climate        Detennine    actual long-term changes in temperature and
         concerning the prediction and                      precipitation throughout the United States
                                             Cbange
         assessment of decadalto
        centennial change, NOAA reports
        on the developmentof the observing systemsthat will be used to provide policymakers
        with the scientificinformation and expert assessmentsnecessary to make decisions on
        long-term global and regional enviroiunentalissues. The first two goals are supportedby
        National Marine Fisheries Service (NMFS)activities;the third gQaIby Office of Oceanic
        and AtmosphericResearch (OAR) and the National EnvironmentalSatellite Data and
        Information Service (NESDIS).
                                              .                                       '.

        We found the performance measures for ali three goals, as well as associated
        explanations and verification details, in need of improvement. Unclear measures, weak

         I The Department's other two strategic goals are (I) provide th~ information fuuneworlc to enable the economy to

         Qperate efficiently and equitably, and (2) provide infrastructure for innovation to enhance American competitiveness.

        2 Submitted to document compliance with the Government Performance and Results Act of 1993.

         3 The Department and NOAA reported FY 2002 results only for "predict and assess decadal to centennial change" in.

        the Fl 2002 PAR. Therefore, for the remaining two goals, we assessed the FY 2001 data contained in the report as thiS

        was the latest performance data available.

        4 Threatened species are species likely to become endangered in the foreseeable future while endangered species are

        th~se species determined to be in imminen!,danger of extinction:'                                        'j               ../

            u.s. Department of Commerce                                                    Final Report No. FSD-/5989-4-0001
            Officeof Inspector General                                                                         September 2004


            prQcedures in place to ensure data reliability,insufficientdocumentation,and inadequate
            explanationsdiminish the usefulness of reportedperfonnance results. Our specific
            findingsare as follows:

                 .	   Performance data for NMFS-supported goals--"Build Sustainable Fisheries"
                      and "Recover Protected Species"-was comp~omised.by unclear measures,
                      weak procedur~ to ensure reliable data, insufficient documentation, and
                      inadequate explanations'

            As currently worded, clarificationis neededfor certainmeasures under both goals. In
            reportingperformance results,NMFS shouldmakeit clear throughthe title of its measure
            and explanations of results whether reported progressrepresents (1) stocks being fully.. .
           rebuiltforthe goalon buildingsustainablefisheriesor speciesbeingremovedfromthe                                         .,
           categoriZ3:tionof threatened or endangeredfor theperfonnance goal on recovering
           protected species or (2) when a stock or speciesbiomass growth is growing, decliningat
           a reducedrate, or stabilized.

           For the goal on recoveringprotected species,measuresincorrectly imply that NMFSis
           assessingits successes at improvingindividualspeciesto the point where they can move
           out of the threatened or endangeredcategories. However,this is not the case.
           NMFSofficialsexplainedthe intentof themeasuresis to -                                                    -
                                                                                                                    FiSheries
           report .any
                     . success. at stabilizingor
                                       .	        improvingthe status
                                                                 ..                           BuildSustainable
                                                                                               Reduce the num oor:0f ove rfi~h'd~'"major




                                                                                                                              o
                                                                                                                                           ""
                                                                                                                                  0	




                                                                                                                                                0
           of a species even if such improvements do not result ill                              stoCksoffishfromWto 45'byN;~1
           the removal of a species from the overfished,threatened,                                                                    ­

           or endangered cafegories.
                                                                                            ..'=~~::
           With respect to the measure on reducing the numberof
           overfishedmajor stocks supportingthe goal of building
           sustainablefisheries. NMFS infonned us that su~cessis
                                                                        th~tened$~~.~t~~
                                                                        R~lfae'bYl~"(~f1U
                                                                        of~)J:ly'Fy~i.
                                                                                             .           fY'.'.
                                                                                                    fhe:~m~~.r                    ".
                                                                                                                                        ',. .-­
                                                                                                                                        :'-- ..:

                                                                        e"'''~'''''e'''''''''n-oAbc'at.:lsJ('''¥'''uIf~'
                                                                         I!UCI';~ II;>!.!51"'<_""""" - 1.J._.;-o-'::~~J.....
                                                                                                                                               .:
           not reported until a stock is fully rebuilt However.                                                   . ,-,',,,'.' :...,...:..,.,


           dependingupon the definition containedin a rebuilding.

           plan. a stock could determinedas not "overfished"when it reaches one half of its

           rebuildingmass target It would be useful for NMFS-toclarify as to what it considers as

           a successwith regard to this measure.

                                                                                                 "j

       Also, NMFS' use of baselinesfor these same threemeasures precludes accurate
.	     assessmentsof its successbecause the Jlumberof speciescategorized as overfished,
       threatened.or endangered-isalways changing. For example,the FY 2000 Baselinefor
       overfishedstocks includednine species that were subsequentlymoved to worse
       categories and does not accountfor three new speciesthat were added after FY 2000.
       For the threatened and end~gered measures, the FY 2000 baseline is incomplete in that
       it does not include the NorthernCalifornia steel head, which was added to the list in June.
       2000, or accoUIitfor subdivisionswithin speciessuch as the right whale which was split
       into three species. In all three cases. any progressthe agency might make with new or
       subdividedspecies through2007 will not be reflected.
     oj	                                                                                                                          j


                                                                     11
     US. Department of Commerce                                 Final Report No. FSD-/5989-4-000/
     Office of Inspector General                                                   September 2004


     In addition, for all measures under both goals, we found that NOAA did not maintain
     appropriate documentation. ill some cases documentation did not support reported data,
     and in others it was simply not available.

     Finally, for certain measures wider both goals, we found that discussions in the PAR.
     (I) did not include details essential to understanding the..data and NMFS' real impact on
     reported outcomes; (2) described verification procedures that ascertained the scientific
     quality of the data rather than the accuracy of the numbers; and (3) did not explain that
     the data was cumulative.

      ..	   Performance reporting for OARINESDIS goal-"Predict and Assess Decadal
            to Centennial Climate Change"-needs stronger oversight to ensure data
            reliability and enhance understanding

    - Improvementsare   also neededin the reportingof the perfonnance measUfessupporting
    this long-tenn climate change goal. The measure for assessing and modeling carbon
    sources and sinks throughout the United States includesglobal data collected ITomocean­
    going vesselswhile the measure dealingwith long term changes in temperature and
    precipitationdoes not conveythat data is collectedITomthe contiguousUnited States
    only (i.e., excludes Alaska and Hawaii). Targets for the two carbon sources measures
    define successby the number of data collectionsites "established,"but the term
    "established"has not been strictlydefined, so countedsites could be at differentstages of
    development.

    Like NMFS, neither OAR nor NOAAIIlaintainedadequatesupportingdocumentationfor
    two of the three measures. ill the case of the measurerelating to detennining actuallong­
    term changesin temperature andprecipitationthroughoutthe United States, supportwas
    not maintainedbut the results could quicklybe recalculated. In the case of the carbon
    sources measures, a recalculationof the data showedthat NOAA had in fact
    underestimatedits progress for both in the PAR.

    Explanationsprovided for the carbon sourcesmeasurescontained errors as well: as it
    waSnot based on the most currentinfonnation, the discussion of the U.S. measure
    incorrectlyidentified the specificocean tracks and profiling sites to be used by NOAA
    for data collection. The globalmeasuredisclosedthe establishm~ntof one site, but failed
    to report that two others were operational.                        ,;.
.
    And finally,NOAA lacks adequateproceduresat the program-levelfor coI1'9bOrating     the
    accuracyof information presentedin the PAR, a deficiencywhich pennitted the reporting
    of incorrectdata. And, as was the case with the NMFS-supportedgoal, verification
    approachesdescribed for the OARINESDISmeasuresin the PAR are not appropriate,in
    that they are methods for ascertainingthe scientificquality of the data rather than
    ensuringthe accuracy of reportednumbers.

    Managementattention is neededto ensure that the titles of performance measures are
    consistentwith what is reported,supportingdocumentationis maintained, and that


                                                1IJ
                  ,,            II                                                                     I

        V.S. Department of Commerce                                  Final Report No. FSD-J5989-4-0001
        Office of Inspector General                                                  .          September1004

        sufficient detail is contained within the PAR to explainthe results and the reliability that
        can be placed on the data.

        In responding to the draft report. NOAA concUlred with all seven of the
    ,   recommendations. The National Marine FisheriesService'(NMFS) generally concurred
        with recommendations and the fmdings,but notedits diS!lgreementwith certain
        statements and conClusi~nscontainedwithin the report. Specifically,NMFS clarified
        that for the purpose of ieporting success underthe measurerelating to 'reducingthe
        number of overfished stocks, that success is not reported until a stock is fully rebuilt For
        the measures relating to reducing the numberof threatenedand endangered species,
        NMFS disagreed with our conclusionsthat FY 2001performancereporting was not
        supported. Also, NMFS identifiedcertain actionstaken or to be taken with respect to the
        "recover protected species" goal. The Officeof Oceanicand Atmospheric Research '"
        (OAR) concurred with our recommendationsand identifiedcertain actions taken or
        planned to address the recommendationswithinthe report.                  .




        Weare encouraged by actions NOAA claims it has taken or planned to address the
        recommendations within the report and awaitthe actionplan to address the
        recommendations. Where appropriate,we have modifiedthe report to reflect NOAA's
        response. Within the appropriatesectionsof the report. we summarizeNOAA's response
        to our draft report as well as provide comments. NOAA's completeresponse is attached
        to the report as Appendix I.




                                                                          ,: ,
.
                                                                                         '. .




                                                         v


                                                    IV
                                                                                             ,
                                                                                             i
         I                                                                                   I                    .

      US. DeparUnent oj Comn,,;, .:e                                                 . Final'lh..yort !fa. FSD-/5989-4-0001
      Office of Inspector General                                                                             September 2004

                                                     INTRODUCTION

      The National Oceanic and Atmospheric Administration's mission is to describe and
      predict changes in the Earth's environment, and conserve and manage the nation's coastal.
      and marine resources.'                                            .
                                                                                 -                                          .
     The DepartmentofCo~erce relies on NOAAactivities to support the strategic goal,
     "observe and manage the Earth's environmentto promote sustainablegrowth:,5
     Commercereports on the outcome of these activitiesin its annualPerformanceand
     AccountabilityReport (PAR), which documentscompliance with the Government
     Performanceand Results Act of 1993(GPRA). GPRA seeks to improve the
     effectiveness,efficiency, and accountabilityof federalprograms by requiring agenciesto
     set performancegoals and to annually assesstheir success at achievip.gthem. NOAA "'.
     maintains seven performance goals:

          .       Buildsustainablefisheries.

          .   .   Sustainhealthycoasts.

          .       Recoverprotectedspecies.

          .       Advance short-term warnings and forecasts.

          .       Implement seasonal to interannual climate forecasts.

          .       Predict and assess decadal to centennialchange.

          .       Promote safe navigation.

      NOAA uses measures within each goal to assessthe programs and activities of its five
    .line offices: the National Oc~ Service;NationalMarine F'isheriesService (NMFS);
      Office of Oceanic and AtmosphericResearch(OAR);National WeatherService; and
     NationalEnvironmental Satellite,Data, and InformationService (NESDIS). From this
     assessment,NOAA generatesthe performanceresultSreported in the PAR. Congress,the
     Office of Managementand Budget (OMB),and other decision makers can use this
     informationto evaluate the federal government'sinvestment in these programs; agency
    officialsuseit to improveprogramoutcomes.                                                          .


    However, performanceresults ena~lesuch assessmentand improvement only to the
    extent that the data reported is reliable, and GPRAtherefore requires agencies to verify
    and validate performance data to ensure its reliability. The Gene~l AccountingOffice
    (GAO) bas defined verification as the "assessmentof data completeness, accuracy, and
    consistency,and the related quality controlpractices." It defines validatioll as the
    "assessment of whether the data is appropriatefor the performance measure...'.6




    S The Department's other two strategic goals are (I) provide the information framework to enable the economy to
    operate efficiently and equitably, and (2) provide inITastructure for innovation to enhance American competitiveness.
    6 U.S. General Accounting Office, July 30, 1999. Performance Plans: Selected Approachesfor Yerificaiion and
    Validation of Agency Perfonnanre Information. GAO/GGD-99-139. Washington D.C.: U.S. General Accounting
v   Office.


                                                               I
                      I
           US. DepaHment of Co",. .'Ce                                                           Final nepo,.} No. FSD-I5989-4-0001
           Office' of Inspector General                                                                              September 2004


           This audit report, the third on NOAA performancemeasures/ details our fmdings and
         . recommendationsregarding NOAA proceduresfor collecting,verifying, and presenting
          performance data for three goals-build sustainable fisheries, recover protected species,
          and predict and assess decadal to centennial change.

                                                                                       -
                                                                               Table I. NOAA Goals and Measures Covered
                                                                                                 --    -. -.
          As presentedin table 1, the                        .:fert:or'man   Assomted Mts
          Departmentreported tbfee
          performancemeasures for each of
                                                              Goals
                                                             Build           .    Reduce the
                                                                                                                     -.     .' '. - -. '\".;-(4t:Nn'lf
                                                                                                   number of overfisbed major stocks of fisb from

          thesegoalsin the Department's\
          FY 2002 PAR. 8 With respect to
                                                             Sustainable
                                                             Fisheries
                                                                             .    56 to 45 by
                                                                                  Reduce the
                                                                                  stock status
                                                                                                   FY 2007
                                                                                                   number of major stocks with an "unknown"
                                                                                                   to no more than 98 by FY 2007

          the performance goal on building                 . Increase the percentage of plans to rebuild overfisbed. major
                                                             stocks to sustainable levels                    ,
          sustainablefisheries, NOAA
          reports measures to assess the      Rover        . Reduce by 10 (fiom aFY 2000 baseline of27) byFY 2001,
                                              Protected
          sequenceof events associated                       the number oftbreatened species at risk
          with sustaining or rebuilding
                                              Spedes       . Increase the number of commercial fisberies that bave
                                                             insignificant marine mammal mortality
          fisheriesover time. For the
                                                           . Reduce by II (nom a FY 2000 baseline of29) by FY 2001,
          performancegoal on recovering                      the number of endangered species at risk of extinction
          protectedspecies, NOAA reports
          measuresreflecting efforts to
                                              Predict and                     .
                                                             Assess and model carbon sources and sinks throughout the



                                                                             ..
                                              Assess         United States
          preventthe extinction of species    Decadal to     Assess an$:!model carbon sources and sinks globally
          identifiedas threatened and         Centennial
                                                             Determine actual long-term changes in temperature and
                                              Climate
          endangered9and to increase the      Change
                                                             precipitation throughout the United States
         number of commercial fisheries
         that do not have adverse impacts. A1;for the goalconcerningthe prediction and
         assessmentof decadal to -centennialchange, NOAAreports on the development of the
         observingsystems that will be used to provide policymakerswith the scientific
         informationand expert assessmentsnecessary to make decisions on long-term global and
         regional environmental issues. The first two goalsare supportedby NMFS activities;the
         third goal by OAR and NESDIS. .

         OBJECfIVES, SCOPE, AND METHODOLOGY

     -   Our purposewas to (I) assessthe collection and reportingofFY 2002 performance
         infonnation
                   . in documentationsubmittedto meet GPRArequiremynts,and
                                                                        I        (2) detennine
         whetherNOAA's internal controlsare sutJicient to ensurethat data is accurate,
         consistent,and reliable. The Departmentand NOAAreported FY 2002 results only for
         "predict and asSe8$decadal to centennialchange~'in theFY-2002 PAR bec~e-data for
         7 National Oceonic and Atmospheric Administration: ImprovemenJs Needed in the Reporting of Performance
         Measures Related to ProrrwtingSaft Navigation and Sustaining Healthy Coasts, Audit Report No. FSD-14998-3-OOO1,
         FebruaI)' 2003, and National Oceanic and Atmospheric Administration: Improvements Needed in the Reporting of
         Peiforl1U11WeMeosures Related to Goals for Advancing Short-Term Warnings and Implementing Seasonal to            -
         Interannual Climate Forecasts; Audit Report No. FSD-15643-3-OOO1, September 2003
         8 The Department and NOAA reported FY 2002 results only for "predict and assess decadal to centennial
         change" in the FY 2002 PAR. Therefore, for the remaining two goals, we assessed the FY 2001 data
'"       contained in the report as this was the latest perfonnance data available.
         !IThreatened species are species likely to become endangered in the foreseeable future while endangered species are
         those species determined to be in imminent danger..<>fextinction.


                                                                        2




                                                                                           _u-            ­
                      __m-   _n--   --   --   -   _u--_U_U      U_-   ---­
   u.s. Department of UJmmerce                                                         Final Report No. FSD-/5989-4-000J
   Officeof Inspector General                                                                             September 2004


   the remaining two was unavailable. Therefore,for those goals, Vfeassessed the FY 2001
   data contained in the report. (FY 2002 results for these two goals were subsequently
   provided in the FY 2003 PAR.)

   To pursue our audit objectives, we reviewed pertinent federal guidance and legislation, 10
   interviewed NOAA officials responsible for generating, J..Ilaintaining,and reporting
   perfonnance data; identjfied and tested internal controls; subjected data to validation and
   verification procedures including the recalculation of reported results; and evaluated the
   clarity and usefulness of explanations provided for each measure in the FY 2002 PAR.
   We further tailored our audit proceduresto each measure underreview, as presentedin                                                .

  table 2. We did not test the reliability of computer-generated data for the performance
  measures, as such data was not essential to our audit objectives.
                                                                                                                                          ,,'

                                   Table 2. OIG Audit Procedures by Measure
                .'
  .Xt~~r~:..                           ;,~e'$J~~AWJtPr~~~Y~$                                          ."                  . ::'~".~:;;~:';.
                                         . Reduce the Dumber.r onrfisbed major stocks or fish rrom 56 to 45 by FY 2007.
                                            We reviewed supporting documentation for 12 stocks to ensure that they were
                                            appropriately categorized as overfisbed.
                                          . Reduce the Dumber .rmajor steds witb an "unknown" stock status t. DO
   Build Sustainable   Asheries             more than 98 by FY 2007. We compan:d the basenurnberofunmown                and
                                            undefined stocks to the list of stocks declared ovcrlisbed to ensure thaI no
                                            duplication existed. We also detennined the number of major stocks that are
                                            undefined.
                                        .    lacrease tbe pen:eatage of plans to rebuild overfisbed major stocks to
                                            sustaiaable levds. We recalculated the reported results for FY 2001. Also, we
                                            obtained supporting documentation 10support the status of ft:building plans for
                                            overlisbed major stocks.                                .
                                        .	 Raluce by JO (from a FY 2000 basdine of 1.7) by FY 2001, tbe number of
                                           tbreatftled species at risk of extinction. We reviewed supportjng biomass
                                           documentation for the species claimed as improved for the reporting period.
                                        . Increase the number ohommerc:ial f!SlIeries that bave insignificant mariae

   Recover Protected Species              mammal mortality. We reviewed supporting documentation for the claimed

                                          reductions in marine mortality.

                                       .	 Raluc:e by II (from a FY 2000 basdine Df 29) by FY 2007, tbe number of
                                          eadangered species at risk Df extinctioa. We reviewed supporting biomass
                                          documentatioo for the species claimed as improved fOTthe period reported.


                                       .	 Assess and modd urbon SOUrtes and sinks tbrougbout the Uuited States. We
                                          reviewed documentatioo supporting the identified tracks, and researched other means
                                          for collecting this data.
                                       . Assess and modd carbon sources aad sinks globally. We ft:viewcddocumentation
  Predict and Assess Decadal to          supporting the identifiedsites and researcbedalternative means for collectingthis data.
  Centennial Change                    . DetermiDeaduallon:-t-            c:baagesia temperatareand predpitatioa tbnKIg""t
                                            the United States. We reviewed lhemcthodology for calcuJating contiguous U.s.
                                            temperature and precipitation 1mIds, and obtaincd'a;bigb-Jcvel undemanding of tile
                                            computer program used in this calculation.


                                                                                                                  .'
   We conductedour fieldwork ftom June 2003 to February 2004 at NOAA headquartersin
   Silver Spring,Maryland. 'Weperformed this audit in accordancewith Government
   Auditing Standards issuedby the ComptrollerGeneral of the United States, and under
.	 authority of the InspectorGeneralAct of 1978,as amended,and Department
 Organization Order 10-13, dated May 22, 1980, as amended.

  10 GPRA; the CbiefFinancial   Officers AcI; OMB Circular A-123, Management Accountability and Control; OMB .

  Circular A-II Part 6, PfeparaJion and Submission of Strategic Plans. Annu4/ Peiformance PlanS, and Annual

v	Program Peiformance..Reports; and GAO  v
 Standards for Internal Centrol in the federal Government.-'



                                                             3

                                                                        d-   .- -- - - .- -- --   - -- ­




               U.S.Department of Commerce                                            Final ReportNo. FSD-15989-4-0001

               Office of Inspector General                                                              September 2004


                                        FINDINGS AND RECOMMENDATIONS


               I.	     Performance data for NMFS-supported goals--"Build Sustainable Fisheries"
                       -and"Recover Protected Species"-was ~ompromised by unclear measures,
                       weak procedures to ensure reliable data, insufficient documentation, and
                       inadequate explanations

               The Department and NOAA listed threeperfonnancemeasures for the performance goal
               "Build SustainableFisheries" and three for the performance goal "Recover Protected
    -          Species"in theFY 2002PAR. However,becauseFY2002resultswerenotreportedin
               the FY 2002 PAR for any of the measures,we assessed FY 2001 results (FY 2002 data
               was unavailable as the issue went to press,but was subsequentlypresented in the FY
               2003 PA!?).                                                                        ...

              We found that the collection and reportingof NOAA's performance information for both
              of the goals can be improved. Specifically,we found titles of certain performance
              measures unclear,management proceduresto ensure the reporting of reliable data to be
              weak, as well as associated explanationsandverification details to be incomplete and at
              times inaccurate. The deficienciesdiminishthe usefulness of the data.

              A. Performance measures are unclear

               GOAL:    BUILD SUSTAINABLE     FISHERIES
                                                         Major stocksidentified asoverfishedareonesin
             I-.a. Reduce the number of overlished       which thebiomass of a given fishery's stock is
             if    ~jd~ ~tOcks
                   FY.$0-1
                               offtshfrom 56 to 45 by    below a prescribed threshold. With respect to this
                                                         perfonnancemeasure, NMFS stated that stocks are
                 eliminated as an "overfished major stock" onlywhen a stock is fully rebuili in accord
                with the Magnuson-StevensAct requirementsof an approved rebuildingplan. However,
                NOAA stated that depending upon the definitioncontained in a rebuildingplan, a stock
                could be determined as not overflshedwhenit reaches one half of its rebuildiDgbiomass
                target. As such, NMFS has set a high standardfor reporting results and it does not
                articulate all of its progress towardsrebuildingstocks. Officials agreedthat the measure,
                as currently worded, does not adequatelyconveythe full range ofNMFS' efforts in.this
                area. Suggestionsfor addressingthis issuecouldbe to include ad~itionaldisclosures
.               specifying the fact that results for the measurereflect only fully rebuilt major stocks and
                that progress is being made with respect to otherstocks.               ­
                                                                                                           '.
              GoAL:     RECOVER PROTECTED SPECIES

        ,: a.Reduceby 10(fI'oma FY 2OQOba~elineof 27) by FY 2007, the
             nu,mberof threate~ ~ies at riskof extinction                 Threatened species are
                                                                          species likely to become
        ..   c. Reduce by 11 (froma FY 2000 baseline of 29) byFY2007, the endangeredin the
        .       nilmber of endangered. species at risk of extinction
                                                                          foreseeable future while
                                                                          endangeredspecies are
             those .~ecies detennined.Jo be in imminentdangerof e~tinction. NMFS officials


                                                           4

     u.s. Department o/Commerce                                   Final Report No. FSD-I5989-4-0001
     Officeof Inspector General                                                      September 2004


      explainedthat they are reportingtheir success for thesemeasures at stabilizing or
      improvingthe status of a species,actions that couldultimately lead to their removal from
    "the threatened and endangeredlists in future years. But, the titles of the measures suggest
      otherwise.

     The two measures improperlysuggest that reportedresu~tsrepresent the delisting of
     threatenedand endang~ed species-that is, an improvementin their status to a nonrisk
     category. ill fact, it often takes 15to 30 years to improvea species to the point of
     delisting as either threatenedor endangered. NMFSofficialsinformed us that in the past
     30 years, only one species-the California grey whale-bas been delisted, and none are
     likely to be delisted in the near future. None of the speciesreported as successes for FY
     2001 (two threatened speciesand three endangeredspecies)are at the point of being
                                                                                               ',,"
     delisted.	

     For threatened species, the reportedresults indicatedthat the number of threatened
     species at risk.dropped by two iti FY 2001. However,the two species claimed-the
     Johnson's Sea grass and SnakeRiver Fall Chinook-have not been delisted. While there
     has been some improvement(not enough for delisting)in recent years with the Snake
     River Fall Chinook, the threatenedstatus of the Johnson's Sea grass has not changedin
     28 years.

    For the endangered speciesmeasure,reported resultsindicatedthat three were ready for
    delisting-the Sriake River sockeye,Kemp's Ridleysea turtle, and Sacramentowinter
    river run salmon. However,the Snake River sockeyepopulation decreased in FY 2001,
    and that of Kemp's Ridley sea turtlesremained constant Finally, while adult saImo!l
    retuining for the Sacramentowinter river run salmonhas generally been increasing since
    1996,the species has not improvedto the point of delisting.

    Again, for these measures, NMFS officials explainedthat they are reporting their success
    at stabilizing or improving the status of a species,actionsthat could ultimately lead to
    delisting in future years. But this is not what the wordingof the measures indicates they
    are tracking. Officials agreedthat the measures, as currentlyworded, do not agreewith
    what they are actually reporting.

    B.	     Assessing performance against a baseline does Dotcle~rly convey NMF'S'
.          progress                                                     ;,


    While using baselines to demonstratesuccess againsta specificuniverse of.~temscanbe
    instructive,NMFS' use of this conventionfor measuresunder both goals preCludes
    effective assessments of its successbecause the defineduniverse is not stable but is
    always changing. NMFS officialsnoted that baselinesenable them to track progresswith
    a particular species. However,the FY 2000 baselinedoesnot account for subsequently
    declared overfished stocks, threatenedspecies, or endangeredspecies. Consequently
    results for these subsequentlyidentifiedspecies would not be represented in reported
    results for these measures. Nor do the current measuresaccount for subdivisions within
    specIes.


                                                 5
                                       __n      n-_n-            ----------­




      u.s. Department ofCommf:..                                               Final R..   t No. FSD-/5989-4-0001
      Office of Inspector General                                                                  September2004

      GOAL:      BUILD SUSTAINABLE           FISHERIES

        a. R-educe the number 0f ove rfis hed
                                          -	            2000 baseline NMFS establishedfor this
                                               The FY '..
          majorstock.soffishfrom56 to45 by     measurecontamedmnestocksthatwerealready
          FY-ZOO7                              in worse categories (i.e., threatened or
                                               endangered), one stock in which fishing was
      halted completely, as well as one stOCkthat did not fall ~der NMFS' jurisdiction. The
      nine stocks were reclas~ified under the Endangered Species Act during FY 2001. Also,
      six new stocks were added to the overfished category: the redfish, white hake, black sea
      bass, greater ambeIjack, darkblotched rockfish, and widow rockfish. Because NMFS
      measured its achievements against stocks identif1ed in FY 2000,' any successes against
      these six species would not be reflected in the reported performance data for this
      measure. One possibility to address this issue would be to modify the performance
      measure as a percentage of the baseline. Such a modification, which would evaluate the'..
      net progress over time, would create a measure that would provide meaningful
      information while still accommodating the addition or removal of stocks.

      GOAL: RECOVER PROTECTED SPECIES

       a. Reduce by 10 (froma FY2000 baseline 0(27) by FY
                                                                    Again because of a shifting
          2007, the number of threatened species at risk of         baseline, NMFS reportedresults
          extinqion                                                 for these measures do not reflect
       c. Reduce by 11 (from a FY 2000 baseline of 29) by FY        any progress made with species
       2007, the number of endangered species at riskof extinction	 declared threatened or
                                                                    endangeredin years afterthe
                                                                    establishmentof a baseline. For
     example, the shift in categorization froma speciesconsideredthreatened to endangered
     would not be reflected in results. ffventhe FY.2000baseline wasincomplete: NMFS
     declared theNorthern California steel head threatenedin June 2000, but this wasnot
     added to the 2000 baseline. fu addition,the right whale, whichwas in the baseline,was
     subsequentlysubdivided into three species,but the baseline and performance data only
     Consideredit as a single species. NMFS agreedwith this finding and noted in its
     response that the measures could be modifiedto measure a percentage of the baseline.

     c.       NMFS lacks a rigorous process for ensuring data reliability

     NMFS lacks sufficient procedures over data collection,documen~tion, verification,and
     reporting to ensure the reliability of reportedperformance,and reporting entities seem to
.
     set their own standards and procedures for determiningwhat data to submit andwhen.
     This lack of consistencym~ that datawithinmeasures is not strictly comparablein
     teITI1Sof how, why, and when it was collected,or what basisjustifies its inc1usion. ­

     GOAL:     BUILD SUSTAINABLE FISHERIES

      Clear criteriafor defining accomplishments are Ulcking. The Magnuson StevensAct
      requires eight fishery management councilsto developrebuilding plans for stocksthat
    - c. Increasethepe~tage of plansto    havebeendeclaredoverfished.The councilshave
      rebUildOV~           majorstocksto                18 months to work with NOAA, state and local
      sustainable levels


                                                             6
                           - - --- - --- ---   ---------------------


                                                                                                    ,            i
 u.s.   Department ojCom'nerce                                                  Finall\eport No. FSD-J5989-4-000J

 Office of Inspector   General                                                                     September 2004



officials, and other interested paJiiesto developthe plans. The plans are then submitted
to NOAA for approval and implementation. NOAA would countthe plans in supportof
the measure once it has approved them and they are in place. Sometimes,however,a
plan is struck down by court order or becomesoutdated in responseto changing
conditions and is therefore in need'of revision. NOAA does not remove such plans from
its achievedresults under the measurebecause,NMFS explained,protective measures
such as fishing limitatio..nscontainedin the earlier plan remain in place. Further limiting
the usefulness of reported data is the fact that the councils use differentcriteria for
deciding when to report a plan as completed. One council, for example,reported plans
that had been revoked by court order. Anothercounted as implementeda plan for
rebuilding the canary rockfish before the officialplan had been approved, although
measures to preclude overfishing had been put in place. Other councils only counted
plans that had been approved and implemented.                               '




For perfonnance data to be useful, the criteriafor its inclusionmust be clear and
consistently applied. To ensure such clarityand consistency,NOAA should strictly
define the stage at which a rebuildingplan can be reported by the councils ~d should
only count those plans that meet this criteria.                                              '   ­




Adequate supporting documentation not maintained.
NMFS couldnot initially provide documentationfor any                              a. Reduce the number of ovem.shE~<hn~pr
                                                                                     stocks offish from56 to 451:1yFYz007
of the threemeasures supportingthis goal. As such,
NMFS had to search for supportingdocumentation. It                                b. Reduqe the nU,mberof major s.t~ with
subsequentlyproduced adequate documentationfor                                      al'!.uli~no.WO"stoGkstatus, w'oonft)£e tI.1an
                                                                                    98 by FY z007                      ­
measures a and b, but not for c. As a result,we were able
to recalculatereported results for measuresa and b, but
not measure c.                       -                                            C'~~;::~~t:~~                                     .
Data coUectionnot confined to set timeframe. For all three measures,NMFS had not
set a date beyond which it would no longeraccept data for inclusionin the FY 2001PAR.
NMFS officials explained that data receivedmonths after September30, 2002 and prior
to issuance of the PAR was counted as received,without regard to fiscal year-end or other
deadline-which means results for the measuresdo not cover the exact same duration
and therefore are not strictly comparable. In the absence of adequatesupporting
documentation,we could not determinehow results might have differed had a cutoffdate
beenenforced.                                                                        >,

Additionally,NMFS did not discloseits open-endedcollectionpolicy in thy PAR or the
potential ramifications on the data's reliability.' Subsequentto our review, NMFs
establisheda unifonn cutoff date of August 1 for FY 2001 datato be included in theFY
2003 PAR. We commendNMFS for its action and suggestthat this date be disclosedin
the PAR so that readers know the data does not span the entire fiscal year.




                                                                       7

                                    - ------------
           - -       --   - --_.­

                 \
     u.s. Pep4rtment ofCom,,,~rce                                 Final Report No. FSD-/5989-4-0001
     Office of Inspector General                                                     September 2004

     GOAL: RECOVER PROTECTED SPECIES


     Reported results not supported.
                                            On January22,2001, implementingregulationsfor
      b. Increa~e the number of CQf11mercialthe largewhaletakereduction plan went into effect.
        fish~Jies that h~ve ins;gnific3nt
        marine .marfima1 mortality.         Accordingto NOAA, the regulations required
                                            conservationmeasures in conunercial fisheries
     based on several years"1>f  speciesmonitoring, gearresearch, and public dia10gueto
     determine that this measurewould reduce interactionsin the mid-Atlantic lobstertrap-pot
     fishery and drift gillnet fishery. We were told that once measures are implemented,it
     takes several years of monitoringto ensure they are effective. NMFS claimed that for FY
     2001it was successfulin helping2 fisherieskeepmarinemanunalmortalityat                     "
     insignificant levels. However,NMFS officialsexplainedthat such prompt resultswould
     be unlikely given that the relatedregulations had been in effect for only part of the fiscal
     year. And we learned that duringFY 2002 and FY 2003, marine mammals (i.e.,right
     whales) continued to suffer significantmortalitylevels after getting caught in fishing
     gear.

    Supporting documentatwn not maintained. For all three measures, NMFS couldneither
    initially provide support for FY 2001 results nor identifywho calculated them. NMFS
    staff had to go back and reviewrecords to detenninewhich particular species were
    included in the reported results. Acknowledgingthe problem, NMFS officials agreedthat
    parties responsible for generatingand reportingfutureperformanceresults shouldsign
    their reports and maintain appropriatedocumentation.

    D.     -   Additional disclosures would enhance usefulness of results

    NOAA had the opportunityto clarify confusionover its performance data in the.
    "Explanation of Measure" sectionsof the PAR, but did not do so. For each of the
    measures we reviewed, pertinentdetails that wouldenhanceunderstanding were not
    included. In addition, the verificationmethods describeddid not provide the appropriate.
    quality check of the data.

    GOAL: BUILD SUSTAINABLE FISHERIES
                                                                       ..
    NMFS' role in reported outcomes not sufficiently explained. Fo; all three measures
.
    supporting this goal it is difficult,if not impossible,to determine the extent to which
    NMFS' actions actuallyhad an impact, or whetherreportedimprovements resulted from
    natural phenomena. Without.qualifyingNMFS' role in achieving the results, the data~s
    usefulness as a measure of the agency'sperfonnance is limited.

    Described verification procedures are inadequate. For all three measures, the
    verification procedures described-stock assessmentsand peer reviews-are methodsfor
    ascertainingthe scientific qualityof the data rather than the accuracy of the numbers.
    NMFS needs.to detail its methodologyfor ensuringthe data accurately reflects its
    progress toward meeting perfonnancegoals.


                                                     8
                ---	                n-­



                                                                                            I
                                                                                            I
     u.s.   Department a/Commerce                                      Final Report No. FSD-J5989-4-0001
     Office of Inspector General                                                          September 2004



     Key details omitted. For FY 2001, NMFS reportedhaving reduced the number of
      a.Reducethe ~umoor ofoverfished   overfishedstocks to 4~ne   short of the goal­
            majorstoclcsoffishfrom56to45 by       and noted thatits Qriginal baseline of 56 stocks had
            F-Y2007.                      been reducedby 10 that no longer met overfishing
                                              .
                                          criteria. Not mentionedis the important fact that 9
     of the 10were reclassi9ed because their statushad deteriorate<LNMFS continuedto
     report an FY 2002 target of 55. No explanationof this is offered in the PAR.

     Differences in data not explained. The measuretracks NMFS' progress in asseSsingthe
                                               status of major stocks against defined levels of
       b. Reduce the numbefof	 major stocks    healthybiomass. For FY 2001, NMFS claimed it,
         with an .unkrioWn.stotk .status to no reducedthenumber of stocks whose statuswas ','
         mote than 98 by FY 2007.
                                               unknownto 120. However,biomass had not been
                                               deijnedfor 15 ofthese stocks-which means they
     were not candidates for assessmentyet and thus were not comparablewith the remaining
     105stocks in the group. Because greater effortis needed to determine the health of
     stocks for those without a definedbiomass,NMFS should differentiatethe two in its
     reportingor in its explanation of the measure.

     Cumulative nature of results not disclosed. Accordingto NMFS officials, the results for
                                                           these two measures reflect progress
       a.	 Reduce the number of overfished major stocks    against a base year (FY 2000). But
             of fish from 56 to 45 by FY 2007.             nowhere in the explanationsis it noted
     . c. Increasethepercentag~ofplansto r~uild
         - - overfished major stOCksto sustaihable levels.
                                                           that the data-iscumulatiye, leavingthe
                                                           reader to assume the results represent
                                                           NMFS' success for FY 2001 only.

    Our audit tests confinned that the data was cumulative,and in some cases went beyond
    the base year: for the measure on increasingthepercentage of plans to rebuild overfished
    major stocks to sustainable levels,for example,we found that rebuilding plans for the red
    grouper and black sea bass were implementedin 1990 and 1996,respectively, yet NMFS
    took credit for them in FY 2001.

    GOAL: RECOVER PROTECTED SPECIES	                                        ."
"
    As with the goal on building sustainablefisheries,we found that for all three measures
    undertheprotectedspeciesgoal,NMFS'roleinreportedoutcomesis not sUfficiently­
    explainedand described verificationproceduresinappropriatelyfocus on scientificdata
    qualityratherthandataaccuracy.                                                      ­

    Key details omitted. We noted that key detailswere omitted ftom the discussionof the
                                                  .commercialfisheriesmeasure: the explanation
    - b. Irx;rea:se the number of Ci)ffiffiercial
        fisheliesthat have insignificant marine    statesthat ''By definition, insignificantlevels
        mammal mortaflty.                          meanthat total mortality or rate of death is no
                                                   morethan 10 percent of the maximumnumber
                                                                 v


                                                      9
        US. Department ofComm~,.ce                                  Finall\~p()rt No. FSD-I5989-4-o'OO/
        Office of Inspector General                                                      September 2004


        of marine mammals that could die from human-caused mortality.» The meaning of this
        statement is unclear, and no infonnation is provided to qualify the potential population
        killed by "human-caused" events. NMFS officials told us that this is a "working
        definition," which is likely to change significantly in the future. However, this does not
        preclude the need for clarification, and the fact that the defmitipn is subject to change
        should also be disclosed.

      Cumulative nature of results not disclosed. NMFS claimed 2 successes with threatened
                                              speciesfor FY 2001: the Johnson's sea grass and
       a. Redl!ce by .10(froma FY2000         SnakeRiverJall chinook salmon. Yet in
          baseline ~f27) byFY 2007, the
          num.rerof threatened $pedes at risk documentationfor the Jolmson's sea grass, it noted
          of extinction.
                                              the following:"the results of our sampling and th(!t
                                              of Gelber et al. (2000) indicatethat.there has been'..
     little or no change in the southerndistributionlimit of H.johnsonii (Le.,Johnson's Sea
     grass) over the past 28 years." In the case of Snake River fall chinook,numbers
     improved in calendar years 1998through2000. . Within the FY 2002PAR, NMFS did not
     disclose that some of the reportedresults occurred in FY 1999and FY 2000, providing
    the impression that all results were initiallyachieved in FY 2001. Although the last
    quarter of calendar year 2000 equatesto the first quarter of fiscal year 2001, we believe
    that crediting the chinook increasein FYs 1999and 2000 to NMFSFY 2001 activities
    gives the incorrect impression that the entire succe~swas achievedin FY 2001. In its
    response, NMFS noted that it wouldpreferto use long-tenn trends on species distribution
    and abundance, rather than a single annualamount to detennine whether the risk of
    extinction has been reduced or increased. For its reported results to be meaningful,
    NMFS should disclose (l) that p~onnaI)ce results are cumulativeif it uses long-tenn
    trends in detennining the status ~f a speciesand (2) when reported improvements in the
    species were initially identified.                                      .




                                            For the endangeredspeciesmeasure, NMFS
        c. Reduce by 11 (from.aFY2000
    .

        baseli~ of29) by FY 2007, the
                                            reported success with the Sacramento winter river
        nurnbeFof endangered species at    run chinook salmon, but the species began coming
        riSkohixtii."lttiPn.               back in FY 1997. Actualresults were not listedfor
                                           this measme in the FY 2002PAR for FY 1999or
    FY 2000 giving the impressiontJIatthe successregarding this speciesinitially occurredin
    FY 2001. As such, this does not providereaders of the perfonnance information with a
.   clear picture that the detennination of resultsreflects a long-teon trend and that someof
    the reported success may have predatedthe establishedbaselineperiod.
                                                                                     ,
    NMFS also reported improvementin the status of the endangeredSnake River sockeye
    salmon as a FY 2001 success under this measure. However, supportingdocumentation
    showed that adults returning to the river had increased ftom 7 in 1999to 257 in 2000,but
    declined to 26 in 2001. Once again, it wowd be useful fOINMFS to identify that the
    m~me is cumulativ~and when improvementsin the species were first identified.



                                                                                                          v

                                                   to
           U.S: Department of Commerce                                 Final Report No. FSD-I5989-4-0001

           Office of Inspector General                                                    September 2004



           E.      Recommendations

           To improve perfonnance reportingunder both goals,the Under Secretary for Oceansand
           Atmosphere should ensure that the followingactionsare taken:

                   (1)	 Perfonnance measures clearly convey the outcomes that are being
                         assessed. -~

                   (2)	 Procedures are strengthenedto ensurethatreported data is accurate,
                        fully supported,and collected over a clearlydefined, consistent time ftame.
                        Such procedureswould include definedactivities and responsibilities for
                        oversight, maintenanceof supportingdocumentation,and data verification:"

                  (3)	 Accurate and completedisclosuresare providedin the explanationsand
                       validation/verificationdiscussionsfor all measures, and all restatedvalues
                       are presented in future reports.

           F.     NoAA Response

           In response to the draft report, NMFS concurred with all the recommendations for both
           the «build sustainable fisheries" and "recover protected species" goals. It also provided
           detail for corrective actions' that have been taken or planned with respect to the goal on
           recovering protected species. For this goal, NMFS also identified the new measures it
           wiIl begin using in FY 2006, and provided information on the process to be implemented
       .   for detennining progress with respect to certain species.

       While NMFS acknowkdged that shifting baselines,insufficientdocumentationand
       verification of data, and inadequateexplanationsof the reported results caused problems
       with the measures in place for FY 2001 and FY 2002,they did take isSuewith certain
       statements and conclusionswithin the report. Withrespectto the goal "build sustainable
       fisheries," NMFS noted that in reporting the resultsof this measure, success is only
       repOrtedwhen a stock is fullyrebuilt even thoughdependingon the definition contained
       in a particular rebuildingplan, a stock couldbe detenninedas.not "overfished" when it
       reaches one half of its rebuildingbiomass.target. Also, NMFS stated that a 2000 baseline
       of overfished stocks for this goal was established.
. .-
       With respect.to the "recover protected species" goal,NMFS respectfully disagreedwith
       our concluSionthat the FY 2001 perfonnance reportingon Johnson's sea ~ and Snake
       River fall chinook salmon for the measure "Reduceby 10 (from a FY 2000 baselineof
       27) by FY 2007, the number-of threatenedspecies at risk of extinction," is not supported.
       For the measure on increasingthe number of commercialfisheries that have insignificant
       marinemanunalmortality,NMFSalsostatedthattheOIGhadincorrectlyreferredto                       .
       "laws" that took effect on January22,2001 when in fact what we described were
       implementing regulations for the Marine MammalProtectionAct. NMFS also disagreed
       with our conclusions that for the measure "Reduceby 11(trom a FY2000 baselineof29)
       by FY 2o:!7,the number of end~geredspecies at risk of extin~tion,"Sacramentowinter


                                                      11

                  I                                                           I
                  I                                                           I
      us. Depart";ent of Commerce                               Final Report No. FSD-/5989-4-000J
      Office of Inspector General                                                  September 2004


      run Chinook salmon and the Snake River sockeye salmon should not have been claimed
      as a success for FY 2001. With respect to baselines, NMFS noted that a measure could
      be modified to measure a percentage of baseline, as species were added .to, or removed
      from the list of threatened or endangered species.

      G.     OIG Comments

      We are encouraged by the NMFS actionstaken or plannedwith respectto these
      performancegoals. Consequently,we are looking forwardto receipt of the NMFS action
      plan to addressthe three recommendations.

     For the measure "Reduce the number of overfishedmajor stocks of fish from 56 to 45 by
     FY 2007" supporting the goal ''build sustainablefisheries"we revised the report to note' ,
     that stocks.are eliminated as an "overfishedmajor stock" only when a stock is completely
     rebuilt. We also noted that dependingupon the definition containedin the rebuilding
     plan, a stockcould be determinedas not overfishedwhen it reaches one half of its
     rebuildingbiomass target. As such, we notedthat NMFS shouldmake sure that readers
     of performancemeasures are clear as to when a stock's progress is considereda success.
     We still believe the use of a baseline as used for this number is problematicand suggest
     that ifNMFS continues to use a baselinethat it modifYthemeasure to a percentage of
     baseline. Such a measure would compensatefor the additionor removalof stocks ftom
     the categoryof overfished major stocks.

       With respectto the NMFS disagreementwith our conclusionsthat results for the two
      measures"Reduce by 10 (ftom a FY~OOObaseline of27) by FY 2007, the number of
      threatenedspecies at risk of extinction"and "Reduce by 11(from a FY 2000 baseline of
      29) by FY 2007, the number of endangeredspecies at risk of extinction"were not
      supported,we modified the report to clarifyour position that creditingsuccessfor FY
      2001 in theFY 2002P AR gave the improperimpressionthat the results were entirely.
      achievedduring FY 2001. Consequently,we modified the text to clarify our position that
     NMFS shouldhave disclosed the cumulativenature of results and when results were
      initiallydetermined. We movedthis discussionftom the section of the finding entitled
      ''NMFS lacksa rigorous processfor ensuringdata reliability" to the section"Additional
     disclosureswould enhance usefulnessof results." Also, we added the NMFS suggestion
     that a measurecould be modifiedto measurea percentage of baseline, as species were
,­   added to, or removed from the list of threatenedor endangered~cies. For the measure
     on increasingthe number of commercialfisheriesthat have insignificantmarine Inammal
     mortality,we modified oUrdiscussionto acknowledgethat the implementiIt8regulations
     for the Atlanticlarge whale take reductionplan came into effect on January22,2001 and
     that it requiredconservation measuresbased on several years of monitoring,gear
     research,andpublic dialogue.




                                               12

            u.s. Department of Commerce                                Final Report No. FSD-159894-000l
            Office of Inspector General                                                    September 2004

            ll.	   Performance reporting for OARINESDIS goal-"Predict and Assess Decadal
                   to Centennial Climate Change"-needs stronger oversight to ensure data
                   reliability and enhance understanding

            The Department and NOAA listed three performancemeasuresto support this goalin the
            FY 2002 Performanceand AccountabilityReport and reported meeting two of them))~
            assess and model carbQnsources andsinks globally,and detennine the actual long-term
            changes in temperature-andprecipitationover the United States. As a proxy, NOAA
            reports the establishmentof observingsystemsto achievethis goal.

            We found the clarity, accuracy, and usefulnessof reporteddata in assessing OAR and
            NESDIS' performance under this goal was lessenedby weaknessesin the presentationQf
            the three measures.                                                                           .
             A.    Titles of measures and targets do not precisely characterize reported data

                                            The U.S. carbon sourcesmeasure applies to
             a. A$es.sand modelcarbon
             sou~ and sinks throughoutthe   observingsystemsdeployedwithin the United States.
             United States                  The observingsystemsprovide data used in assessing
             b. AsSess ~nd modelcarbon      and modeling carbonstorage in the ocean and          .
             sources and sinks globally
                                            atmosphere. For FY 2002, NOAA reported that it
                                            had identifiedfive new pilot atmospheric sites and
        four new oceanic carbon tracks when reporting on the measure "assess and modelcarbon
        sources and sinks throughoutthe United States. The fivenew pilot atmospheric profiling
        sites that NOAA reports having establishedare withinU.S. borders. However, the
        reported results also includeocean tracks that involvesailingvessels that travel globally,
        and these would thus be more appropriatelyincludedin the second performance
        measur~"assess and model carbonsources and sinks globally." NOAA officials
        concurred.

        The temperature/precipitationmeasurecovers only the 48 contiguous states. Although
                                                this fact is noted in the explanation, the title should
          e. Oetennine actJJaIlong-term changes
                                                also specify "throughoutthe contiguousUnited
        ..if!.tetnpeniture a.nd pr«ipitation    States." NOAA officiaJsagreed that the title
          thr<i>"ughOut tOOUnit~.Sfat~s         should be revised.
.

        Criterill for success need to be defined. . For the carbon sources measures, NOAA gauges
       its success by the number of carbon data collection sites "established,ubut has not strictly
       defined what "established"means, so sites counted in supportof the measure couldbe at
       different stages of development. NOAA officials told us that an established site couldbe
       one whose locationhas been tentativelyidentified, has been agreed upon, or is
       operational. Hence, data reported for these measures may not be comparable, and the
       reader may think "established"meaJ.1S in place and operational.


    v	 II   AUthree measures were new in FY
                                         v
 2002.



                                                     13

             u.s. Department of Commerce                                 Final Report No. FSD-15989-4-0001
             Office of Inspector General                                                    September 2004


         . TheU.S.carbonsourcesmeasurestipulateditstargetas "establishing"pilotsitesand
             reported having "tentatively identjfied"new sites that in some cases were specificcities
             and in other cases were states. The latter suggeststhat the locationhad been narrowed
             down but not specificallychosen. NOAA officialsconcurred that they need to report
        .	   dataconsistentlyandto the samelevelof detail.     .                                .
                                                                     -
             B.	   Documentation to support r~ults should be maintained, PAR explanations
                   need to be clear and accurate, and verification procedures are needed




           Adequate supporting documentation not maint(lined. NOAA officials could not
           initiallyprovide supportingdocumentationfor perfonnance data reported under any of
           the three measures. Also, what they eventuallyprovided did not always match claimed
         . results for both the U.S. and global carbon sourcesmeasures. The.documentswe

           reviewed indicated that FY 2002 resultswere likelyunderstated in the PAR for ~th of
           the measures.                          .




              a. Assess	 and model carbon   As a proxy for the assessment and modeling of carbon
                                            sourcesand sinks,NOAA uses the establishmentof data
                 sources and sinks throughout
                 the United States          collectionsites. For the U.S. carbon sources measure,we
                                            were initiallyprovidedwith supportingdocumentation
         identifying three specific sites (cities) and severalpreliminary sites (states). At our
    -    request, NOAA reassessedthe year-end statusof sites and provided documentation
         supportingthat, as ofthe close ofFY 2002, it was further along than reported. NOAA
         reported in theFY 2002 PAR that as of the end ofFY 2001, five carbon profiling sites
         and four new oceanic carbon tracks had been identified. However, two aircraft, using
         NOAA equipment,were alreadyprovidingdat~ work had started on collectingdata ftom
         another aircraft, and four aircraft and one tall towersite had been tentatively identified.
         We also found that the Atlantic Oceanographicand MeteorologicalLaboratory(AOML)
         began collecting data ftorila ship operatingin the Caribbean in March 2002.

                                    For the globalmeasure,NOAA repOI;tedthe establislunentof
         . b. As$$S$ and mQd~
.             carbOn soUrces a'nd.  three new sites,.butcouldnot readily produce documentation
              ~ g(O~11y             substantiatingthese results. At our request, NOAA
                                    reassessed the fiscalyear'-endstatus of its obsei:yation
        sYstems,and again found that it was furtheralongthan it had reported: it had begun
        receiving data fium one land-basedsite (pallas,Finland),two ships, and deployedtwo
    .   CO2sensors located on ocean moorings by the end ofFY 2002. Also, NOAA was
        developing a second land-basedsite (Ochsenkopf,Gennany), and was in discussionsfor
        2 other sites. The NOAA official responsiblefor reportingon the oceanic and carbon .
        tracks and global background sites recognizedthe deficiencies in supportingdata and the
        need for improvement in this area.

                      v	                                                                                     v



                                                       14
                                                                                                             I
                                                                                                             I
                                                                                                             II
          u.s. Department of Commerce                                    Final Report No. FSD-I5989-4-000J
          Officeof Inspector General                                                        September 200i


                                               NOAA did not maintain documentation supporting
           c. Detennineactuallong-tenn	                                         ..    .
              cl1angesintemperatureand         results for the temperature/precIpItatIon measure, but
              precipitation
                          throughoutthe        was able to produce corroborating data from its system
              UnitedStates	                    that tracks temperature and precipitation trends..
         .	                                    Although the measure waS recalculated within a few
           minutes, doing so required the availability of personnel with the knowledge and expertise
            to perfonn the recalculaJion. With the potential for retirements and reassignments, there
            is no guarantee that the-personnel necessary to perfonn the calculation will always be
            available. NOAA should maintain current, readily available records supporting the
           results it submits to the Department for publication in the PAR.

          Explanations not consistent with actual events. Our audit found that the expianations
          accompanyingcertain measures containedinaccurateinfonnation.	                         "

           a. Assess	 and model carbon     While NOAA properly notes that the U.S. carbon
              sources ;;Indsinks throughoutmeasure was not met, its discussion Qfthe results
              the United States            incorrectly identifies two ocean tracks for ships equipped
                                          with CO2 sensors. We found that the reported Newark,
         Delaware, to Bennuda track actually was to begin in Newark, New Jersey (the ships
         ultimately sailed from Norfolk, Virginia); the California to the Far East track actually
         runs from California to Australia/New Zealand. It also discussed AOML and Pacific,
         Marine Environmental Laboratory (PMEL) data collection but did not include this data in
         the results, and reported a planned atmospheric profiling site in North Carolina (South
         Carolina was ultimately chosen instead).

                                         The explanation for this measure only mentions that a      .
           b. Assess and model
              carbon sources and   samplingsite has been establishedin Ochsenkopf,Gennany,
              sinks globally       and that discussionsfor other sites are under way. However,
                                   suppor:tingdocumentationwe reviewed indicatedthat NOAA
         had began receiving data from sites in Pallas,Finland,and an ocean track as of the end of
         FY 2002.

         Documented verification procedures not in place and inappropriatelydescribed. For all
         measures,NOAA does not have proceduresor an establishedchain of command at the
         program level for verifying the accuracyof collecteddata and related explanations.
.   :	   For example,NOAA infonned us that officialsresponsiblefor the ocean track data under
         the U.S. carbon sources measurewere not giventhe opportunityto review the
         accompanyingexplanation, whichhad been writtenthree years earlier and)Vasthus in
         need of update. mcorrect route infonnation was consequentlyreported.

         For all three measures, the verificationproceduresdescribed-quality assurance,
         calibrations,and simulation-are methods for ascertainingthe scientificquality of the
         data rather than the accuracy of reported numbers. NOAA needs to detail its
         methodologyfor ensuring the data correctlyreflectsits progress toward meeting
         perfonnance goals.



                                                         15
    u.s. Department of Commerce                                Final Report No. FSD-15~89-4-0001
    Ojji-(:eof Inspector General                                                  September 2004

    c.    Recommendations

    To improve performance reporting under this goal, the UnderSecretary for Oceansand
    A~osphere should ensure that the following actionsare taken:

           (1) Performance	 measures and targets are revised to clearly convey the actiVities
               and outcom~ that are being assessed.

           (2) 'Incorrect or unclear results are restated in futureperformance reports.

           (3) Managementprocedures to ensure that reporteddata is accurate, fully
               supported, and adequately explainedand verifiedare strengthened. Such
               procedureswould include defined activitiesandresponsibilities for oversiglif;'
               maintenance of supporting documentation,and data verification.

           (4) Explanationsand validation/verificationdiscussionsprovide all appropriate
               informationneeded to fully understandthe meaningof reported results.

    D.    NOAA Response

    In response to the draft report, NOAA concurredwith all four recommendations. NOAA.
    discussed the following actionsthat had been taken or wereplanned to address the
    recommendations: (1) revision of performance measuresfor the FY 2006 Annual
    Perfonnance Plan, (2) the developmentof more rigorous reportingstandards and
    improvement in e!planations of supportingtext,J3) the establishmentof a perf~rmance
    measure data.basefor the climateprogram, and (4) strengtheningof future explanations
    and validation/verificationdiscussions.

    E.     OIG Comments

    We are encouragedby the NOAA actions taken and plannedwith respect to this measure
    and look forward to receiving their action plan.


                                                                    I"
.
                                                                               °..




                                              16

                                                                                               APPENDIX I
                                                                                                                           I



                                        .               UNI"i"£O
                                                        N~tio.aa.
                                                                     STA"r£S
                                                                      Oceanic
                                                                                       ePA«T'M!!N't"
                                                                                      and   Atn1osp!1leric
                                                                                                             O!P COM1\Iiett.ce
                                                                                                                 AdO:iini.$~...ti()"
                                                        CHIEF       ADMINISTRAT1VE                 OFFICER
-.



           JUl 2 2 2004


      MEMORANDUM FOR:                  WilliamF. Bedwell>Jr. ­

                              -
       Acting DeputyAssistant
                                       InspectorGeneral.for Auditing

      FROM:

      SUBJECT:
                                       WilliamF.BrogIie 1'''-'-     /7                a'+~
                                       Improvements Needed in the Reporting of Performance for"
                                       ~M~~-&~~~ook~~~&oo~

                                   .   Protected Species. and Predict and.Assess Decada/ to
                                       Centennial Climate Change
                                       Draft Audit Report No. FSD-15989-4-000lIJune 2004


      Attached is the National Oceanic and Atmospheric AdministratiQn's (NOAA) response to
      the Office of Inspector General>s draft audit report on NOAA>s reporting of three
      performance goals and their associated measures in the Department of Commerce FY 2002
      Performance and Acoountability Report: (1) "build sustainable fisheries>" (2) "recover
      protected species," and (3) "predict and assess decadaI tQ centennial climate change." This
      response was prepared in accordance with De~ent         Administrative Order 2.P-3.

      We concur with all seven recommendationsand appreciate the opportunity to"respondto
      your draft audit report.

      Attachment




                                                                                ,i

                                                                                 I::




                                                                                                 .~

                            T	                            n-   -   _n   _n_-   -   nn   -   --   ---   n-   ---­
                             i




..
                     NOAA Comments on the Draft Office oflnspector General Report Entitled
                     "Improvements Needed in the Reporting of Performance for NOAA Goals -Build
                         Sustainable Fisheries, Recover Protected Species, and Predict and Assess
                                     .    J>ecadal to Centennial Climate Change"
                                   (Draft Au~it Report No. FSD-J?989-4-Oo01lJune 2004)

                                        -
            General Comments

            -TheNationalMarine Fisheries Service(NMFS) generallyco~curswiththe findings and
            recommendationsof the repo~ with certain exceptionsnotedbelow. Shiftingbaselines,
            insufficientdocumentationandverificationof ~ andinadequateexplanationsof the reported
            resultsindeed caused problems with the measures in plaCefor fiscal years2000 and 2001. ...'

            Theproblem of shifting baselinesis inherentin the complexityof naturalresourcemanagement,
            as circumstanceswithin the environmentand ecosystemsare constantlychanging. Not only are
            the resourcesthemselves in constantflux, but so is our knowledgeof them. 1llere is no perfect
            solutionto this problem. Data collection,verification,and explanationare also difficulttasks
            giventhe complexityof the systemsbeing described.

       .	   The performancemeasureSevaluatedin this report representNOAA's:firstattempt at outcome­
            based performance managemcent and reporting. Outcome-based performanCe.measurement is
            extremelydifficult, especially giventhe complexityof thenatural environmentand the                     ­

            ecosystems with which NMFS mission is concerned. It is therefore not surprising that this first
            attempt was met with unforeseen difficulties and inadequacies. Valuable lessons have been
            learned from this experience.

            Specific Comments

            Page 4. paragraph 1. line 3: The reportstatesthat "becauseFY 2002 results werenot provided
            for any of the measures, we assessedFY 2001 results." This is inacCuratewith respectto the
            ''Recover Protected Species" goal. Perfonnancewas summarizedand documentedfor both FY
            2001 and FY 2002. Both years' performancewas providedat the Officeof Inspector General's
            (OIG)request.                                                                                              "-..-.


         PR2e4~paragraph3: The repo~ statesthat the "Build SustainableFisheries"measure "...implies
     ;	 the eliminationof major stocks wm considerationas beingoverfished. As such, this measure
        gives an inaccuratedescription ofwhat is being measured."In fact, only when a~ock is fully
        rebuilt in accord with the Magnuson-stevensAct requirementsof an approvedreBUildingplan is .
        it elirnirmtedas an "overfished major stock" for reportingsuccessunderthis measure.
        De~g         upon the definition containedin a rebuildingplan, a stock-couldbe determinedas not
        "overfished"when it reaches one baIfof its rebUildingbiomasstarget. However,for the purpose
        of reportingsuccessunder this measure,we determinednot to reportsuccessmtil a stock is fully
        rebuilt Therefore,the current measuremore than accuratelyreflectsprogresstowmd the goalof
        reducingthe number of stocks that are overfished.                       .

                                                        v 1

. .


         Page 5. paragraph 6. and page 6. paragraph2: "NMFS' use of this conventionfor measures...
         precludeseffectiveassessments of its successbecausethe defIned'universe is not stablebut is
         alwayschanging."

        The "Recover Protected Species" goal established a 2000 or 2001 baseline for the fIve-year
        period believing that reviewers would be able to clearly m~ure progress. For example, the       .

         target of reducing by 11 the_numberof endangeredspeciesat risk of extinctioncouldbe
         measuredagainst a baseline:of 29 speciesin FY 2000. Sucha measure could be modifIedto
         measure a percentageof the baseline,as specieswere addedto, or removed from the list of
        -threatenedand endangered species.

         Similarly,a 2000 baseline of overfishedstocks for the "Build SustainableFisheries"goalwas
        establishedto avoidthe problem highlightedby the OIG of having a baselinethat is always "',
        changing. Therewas a one-timechangein the baselinein 2002 for overfishedstocksto take
        into account 11stocks no longer subjectto the rebuildingrequirementsof Magnuson-Stevens .
        Act. The agencyhas consistently trackedthe statusof these stocks since that time. In addition,
        the status of all stocks is tracked in the AnnualNMFS Statusof StocksReport to the Congress.

        Page 6. paragraph3: We agree with this overallfinding. Perfonnance measuredby the Recover
        Protected SpeciesProgram in FY 2000 and FY 2001 was from disparate sourceswithinNMFS.
        There was no formalmechanism for gatheringor submittingdata in supportof Government
        PerformanceResultsAct (GPRA)-mandatedperformancemeasurementor for regional
        managersand sciencecenter directorsto sign off or certifyall of the results. Whilethe standards
        of data gathering and reporting by NMFS regional offices and science centers are rigorous and       .


        often peer-I:~viewed, they were seldom done with the purpose of specific measurement of the
        GPRA performance measures.          .                                    .




       For the "Build Sustainable Fisheries" goal, the data are contained within the Annual NMFS
       Status of Stocks Report to the Congress. The timing issues noted by the OIG are a result of this
       report being issued at different points in the year.

       P~e 8. ~h          1: NMFS respectfullydisagreeswith the findingthat the FY 2001
       perfonnance reportingon Johnson's sea grass and SnakeRiver chinooksalmon is not supported
       by data. In the case of Johnson's sea grass the successwas that the species had not declined.
       Our meaSureof success in reducingthe probabilityof extinctionis tQ.havestable or increasing
       numbers.                                                            ",
"

       In referenceto the Snake River fall chinook,we respectfullydisagree with the conclusionthat it
       is inappropriateto use data from 1998through2000 to assessperformance in FY 2001. We
       would prefer to use long-tenn trendsin speciesdistribution.andabundance,rather than a single
       annual count to determine whetherits risk of extinctionhas been being reduced or increased.

       P~e 8. 1J~h       2: The OIG has inC9rrectlyreferredto "laws" that tookeffect on January22,
       2001, and concludedthey would take years to ensurethat they were effective. The lawrequiring
       the reduction of marine mammalmortalitytook effectin 1994with a re-authorizationof the

                                                      2
             Marine Mammal Protection Act. The January 22>2001 "law" is actually an implementing
             regulation for the Atlantic large whale take reduction plan. The regulation required conservation
             measures in commercial fisheries based on several years of species monitoring> gear research and
             public dialogue to determine that these measures would reduce interactions"in the mid-Atlantic
             lobster trap-pot fishery and the drift gilInet fishery. These analyses"included Endangered Species
          Act (ESA) section1 consultationson the effectsof the fisherieson endangeredwhalesandthe           "




          leg~ requirementthat we ~ove the likelihoodof jeopardizingthe continuedexistenceof these
          specIes.

          -P31!e8. paragraPhs'3 and 4: With respectto your conclusionsregardingthe Sacramentowinter
          run chinook salmonand the Snake River sockeyesalmon, we respectfullydisagree with your
          finding that these should not ,havebeen claimedas a successfor FY 2001. We refer you to the
          response above. It is true that the criteriameasuredthe currentstatusversus that at the time of
          listing to make a detennination of whetherits risk of extinctionwas increasing,decreasing,or
    .	    remaining the same. These chinook and sockeyesalmon specieswere listed in 1994and 1991 .
          respectively,and our assessmenttakes into accountthe longer term database, rather thanrelying
          on the one-yearSIl3pShotof status.

          PaJ!es8-9. paragfaph5: We agree in generalwith this conclusionand agree that parties
          responsible for generating and reportingfutureperformanceresults shouldsign the reportsand
          maintain appropriatedocumentation.

          P~e 10. paragraph 4 : We agree with this conclusion with respect to defining insignificant levels
          of marine mammal mortality interacting with commercial fisheries.

         NOAA Response to OIG Recommendations'

         I. Performance data for NMFS-supported goalS-"Build Sustainable Fisheries" and
         "Recover Protected Species"-was compromised by wlclear measures, weak procedures to
         ensure reliable data, insufficient documentation, and inadequate explanations

         To improve performancereporting under both goals,the Under Secretaryfor Oceans and
         Atmosphere shouldensure that the followingactionsare taken:	               .



         Recommendation 1: Performancemeasuresclearlyconveythe outcotp.esthat are being
         M~~                                                             "         "
.
         NOAA Response: We concur for both the ReCoverProtectedBpeciesand BUildS~ustainable
         Fisheries Programs. With respectto RecoverProtected Species(now Protected Species
         Management)perfonnance measuresbeginningin FY 2006, they hav~been revised as follows:
         .         Increasethe number of threatened,endangeredand depletedprotectedspecies!as of


         IProtectedspecies is defined as all marine mammalstocks and those non-marinemammal
         species listed as threatened or endangeredundertheESA
                                                         v 3
                                                                                                               I

" .


                    January 1, 2004 (out of 68) with stable or increasingpopulationlevels from 20 in 2005 to
                    36 in 2009.

             .      Increase the m,unberof protected species) withlrnownimpactsby fisheries as of January
                    1, 2004 (out of 136)for which mortalitiesarereducedto acceptablelevels2from 117in
                    2005 to 126 in 2009.                               -­

             .      Increase the numbeiof endangered, threatened, depleted or strategic protected speciesl
                    (out of 78) for which recovery, conservation, and/or take reduction plans are in place
                    from 30 in-2oo5 to 70 in 2009.

             .      Increase the number of stocks of protected species3(out of230) with adequatepopul~tion
                    assessments from 6O'in2005 to 200 in 2009.                                        .\


             Recommendation 2: Proceduresare strength~ed to ensurethat reported data is accurate,fully
             supported,and collected over a clearlydefined, consistenttime frame. Such procedureswould
             includedefmed activities and responsibilitiesfor oversight,maintenanceof supporting
             documentation,and data verification.

             NOM Response: We concurfor both programs. Forthe "Recover Protected Species"goal,
             eachNMFS regional office and science center is to provideinput on the achievementof our
             GPRAperformance goals for FY 2003 and that reportingbe completedin tim.efor reportingto
             the Departmentof Commerceby December3I, 2004.

           Specifically-werequested that each regionnominate specificspeciesor fisheries that can be used
          to justify performance towards the measuresfor FY 2003. A templatewas provided(see page 5)
          for each species/fisherythat is nominated. The basicinformationrieededfor each specieS/fishery
          includesa short description of why it meets the measure,and any documentationthat can be used
          to supportthe determination. We made it clear that themeasuresare cumulativein nature and
          those species/fisheriesreportedfor FY 2002 should not be nominatedfor FY 2003 unlessit is
          detennined that they cannotmeet the intent of the perfonnancemeasure.

         Weprovided guidance for determiningwhether a specieshas a loweredrisk of extinction;to
         evaluatethe species biology (e.g.,abundance,trends, distribution,and,diversity)as well as any
         conservationactions that reduceor remove any significantthreatsto th~species. For example,
      :: many of the Pacific salmon speciesthat were reported in FY 2002 had both increasedabundance,
                                                                                          '.
         2Acceptablelevels are definedas take"lessthan the PotentialBiologicalRemoval (PBR)for
         marine mammals, and take authorizedthrough ESA sections4(d), 1(~)(2),and 10for listed
         species.                                  .
         3   Stocksincludepopulations ofESA -listedspecies.




                                                           4
